No

2c)-

2S

3n IICbe

Oupreme Court of tbe littiteb .'tate
•
HAROLD E. RUTILA, IV,
Petitioner,
V.
DEPARTMENT OF TRANSPORTATION,
Respondent

•

OFFICE
SUPREME

4

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Federal Circuit
•
PETITION FOR WRIT OF CERTIORARI
•
HAROLD E. RUTILA, IV
Pro se
114 W. Adams Ave.
Apt. 401
Detroit, MI 48226
(810) 845-3497
h.rutila@gmail.com

RECEWED
OCT

2 0 2020

OFFICE OF THE CLERK
SUPREME COURT, U.S.

1

QUESTION PRESENTED
Whether the Merit Systems Protection Board violated Petitioner's due process rights when an administrative judge failed to provide him a hearing, in
violation of 5 U.S.C. § 7701(a), having not produced
evidence of a hearing right waiver or that the required elements for a waiver, as held by this Court in
Johnson v. Zerbst, 304 U.S. 458 (1938), had been met.

11

PARTIES TO THE PROCEEDING
Petitioner is Harold E. Rutila, IV. The respondent
at the Merit Systems Protection Board and the Court
of Appeals for the Federal Circuit is the Department of
Transportation.
RELATED CASES
Rutila v. Department of Transportation, No.
19-1712, U.S. Court of Appeals for the Federal
Circuit, Judgment entered February 10, 2020
Rutila v. Department of Transportation, No.
DC-1221-18-0474-W-1, Merit Systems Protection Board, Judgment entered December 20,
2018

111

TABLE OF CONTENTS
Page
QUESTION PRESENTED
PARTIES TO THE PROCEEDING
RELATED CASES

ii
11

TABLE OF CONTENTS

iii

TABLE OF AUTHORITIES

vi

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY AND REGULATORY PROVI1
SIONS INVOLVED
INTRODUCTION

7

STATEMENT OF THE CASE

9

Statutory and Regulatory Framework

9

Factual and Procedural Background

11

REASONS FOR GRANTING THE WRIT

16

1. The decisions below endorse rogue decision making by an administrative judge
that went far beyond the normal course of
WPA litigation, because summary judgment was imposed on Petitioner without a
basis in law, prejudicing Petitioner's due
16
process right to a hearing

iv
TABLE OF CONTENTS—Continued
Page
The Merit Systems Protection Board's
failure to provide Petitioner with a hearing, and the Federal Circuit's upholding of
the same, caused undue harm to Petitioner that should compel this Court's in18
tervention
The MSPB's and the Federal Circuit's decisions gravely threaten WPA protections for
21
a wide swath of future whistleblowers
CONCLUSION

24

APPENDIX
United States Court of Appeals for the Federal
Circuit, Opinion, February 10, 2020

la

Merit Systems Protection Board, Initial Decision, December 20, 2018

12a

Merit Systems Protection Board, Order, November 14, 2018

26a

United States Court of Appeals for the Federal
Circuit, Order Denying Petition for Rehearing, June 5, 2020

28a

Petition for Panel Rehearing, United States
Court of Appeals for the Federal Circuit, May
19, 2020

30a

Motion for Certification, Merit Systems Protection Board, November 5, 2018

53a

V

TABLE OF CONTENTS—Continued
Page
Merit Systems Protection Board, Summary of
Telephonic Status Conference, October 26,
2018

62a

Motion for Postponement of Hearing, Merit Systems Protection Board, October 25, 2018

69a

Motion to Compel Discovery, Merit Systems Protection Board, October 24, 2018

74a

Appeal Form — Appellant and Agency Infor103a
mation, Merit Systems Protection Board
Merit Systems Protection Board, Order Closing
111a
the Record, October 26, 2018
Merit Systems Protection Board, Order Re112a
scheduling, October 15, 2018
Merit Systems Protection Board, Order Grant113a
ing Extension of Time, October 10, 2018
Merit Systems Protection Board, Order, August
114a
27, 2018
Agency's Initial Brief, Merit Systems Protection
115a
Board, November 9, 2018
Reply Brief of Petitioner, United States Court of
121a
Appeals for the Federal Circuit
Course 50046 — Tower Performance Assessment
129a
(PA) Briefing
GAO Report to Congressional Committees

133a

vi
TABLE OF AUTHORITIES
Page
CASES
Alberg v. Department of Health and Human Ser10, 13, 23
vices, 804 F.2d 1238 (Fed. Cir. 1986)
Campbell v. Department of Defense, 102 M.S.P.R.
10, 15, 17, 23
178 (MSPB 2006)
Campbell v. Merit Systems Protection Board, 27
passim
F.3d 1560 (Fed. Cir. 1994)
Cleveland Bd. of Ed. v. Loudermill, 470 U.S. 532
(1985)

23

Crispin v. Department of Commerce, 732 F.2d
919 (Fed. Cir. 1984)

10

Delgado v. Merit Systems Protection Board, 880
F.3d 913 (7th Cir. 2018)

16

Frampton v. Department of Interior, 811 F.2d
1486 (Fed. Cir. 1987)

16

Johnson v. Zerbst, 304 U.S. 458 (1938)

9, 15, 23

Langer v. Department of Treasury, 265 F.3d 1259
(Fed. Cir. 2001)

16

McBurney v. OPM, 39 M.S.P.R. 126 (1988) ....10, 12, 22
Miller v. Department of Justice, 842 F.3d 1252
(Fed. Cir. 2016)

19

Montana Dakota Utils. Co. v. Northwestern Pub.
Serv. Co., 341 U.S. 246, 71 S.Ct. 692, 95 L.Ed.
912 (1951)

16

Mount v. Department of Homeland Security, 937
F.3d 37 (1st Cir. 2019)

17

vii
TABLE OF AUTHORITIES—Continued
Page
Pariseau v. Department of the Air Force, 113
16, 17
M.S.P.R. 370 (2010)
Phillips v. Department of Air Force, 71 M.S.P.R
10, 12, 22
381 (1996)
Siler v. Environmental Protection Agency, 908
F.3d 1291 (Fed. Cir. 2018)

19

Smith v. General Service Administration, Case
No. 2018-1604 (Fed. Cir. Jul. 19, 2019)

19

Whistleblower Protection, Government Accountability Office, Report No. GAO-17-110 (2016)

10

STATUTES AND REGULATIONS
5 C.F.R. § 1201.24
5 C.F.R. § 1201.24(a)(1)-(9)
5 C.F.R. § 1201.24(d)
5 C.F.R. § 1201.24(d)-(e)

6
16
8, 20
10

5 C.F.R. § 1201.41

6

5 C.F.R. § 1201.51

6

5 C.F.R. § 1201.59(b)

22

5 C.F.R. § 1201.73(d)

20

5 C.F.R. § 1201.73(d)(3)

13

5 C.F.R. § 1209.6(a)(1)

16

5 U.S.C. § 1204

5, 9

5 U.S.C. § 1204(a)

20

5 U.S.C. § 1204(a)(1)

10

vii'
TABLE OF AUTHORITIES—Continued
Page
5 U.S.C. § 1214(a)(3)
5 U.S.C. § 1221

5, 12
5, 9

5 U.S.C. § 1221(a)

12

5 U.S.C. § 1221(e)

12

5 U.S.C. § 2302
5 U.S.C. § 2302(b)(8)

passim
5, 7

5 U.S.C. § 3105

6

5 U.S.C. § 7701

5, 8

5 U.S.C. § 7701(a)
5 U.S.C. § 7701(a)(1)
28 U.S.C. § 1254(1)

10, 20
16
1

OTHER AUTHORITIES
S. Rep. No. 112-155

8, 21

1
PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Federal Circuit (App. la-11a) is not reported.
The opinion of the Merit Systems Protection Board
(App. 12a-25a) is also unreported.
♦

JURISDICTION
The Federal Circuit Court of Appeals entered its
judgement on February 10, 2020 (App. la-11a). A petition for rehearing (App. 30a-52a) was denied on June
5, 2020 (App. 28a-29a).
Petitioner did not file for any extensions of time.
This Court granted a blanket extension in response to
the COVID-19 virus, revising Petitioner's deadline to
file this Petition to 150 days from the date of the denial
of his petition for rehearing. Supreme Court Miscellaneous Order of March 19, 2020.
This Court's jurisdiction is invoked under 28
U.S.C. § 1254(1).
♦

STATUTORY AND REGULATORY
PROVISIONS INVOLVED
The following statutory and regulatory provisions,
as in effect on April 22, 2018 when Petitioner filed a
notice of appeal with the Federal Circuit, are involved:

2
5 U.S.C. §2302. Prohibited personnel practices.
(a)
For the purpose of this title, "prohibited personnel
practice" means any action described in subsection (b).
For the purpose of this section—
(A) "personnel action" means—
an appointment;
a promotion;
an action under chapter 75 of this title
or other disciplinary or corrective action;
a detail, transfer, or reassignment;
a reinstatement;
a restoration;
a reemployment;
a performance evaluation under chapter 43 of this title or under title 38;
a decision concerning pay, benefits, or
awards, or concerning education or training if
the education or training may reasonably be
expected to lead to an appointment, promotion, performance evaluation, or other action
described in this subparagraph;
a decision to order psychiatric testing or
examination;

3
the implementation or enforcement of
any nondisclosure policy, form, or agreement;
and
any other significant change in duties,
responsibilities, or working conditions; with
respect to an employee in, or applicant for, a
covered position in an agency, and in the case
of an alleged prohibited personnel practice described in subsection (b)(8), an employee or
applicant for employment in a Government
corporation as defined in section 9101 of title
31;

(D) "disclosure" means a formal or informal
communication or transmission, but does not
include a communication concerning policy
decisions that lawfully exercise discretionary
authority unless the employee or applicant
providing the disclosure reasonably believes
that the disclosure evidences—
any violation of any law, rule, or regulation; or
gross mismanagement, a gross waste of
funds, an abuse of authority, or a substantial
and specific danger to public health or safety.

(b) Any employee who has authority to take, direct
others to take, recommend, or approve any personnel
action, shall not, with respect to such authority—

4
(8) take or fail to take, or threaten to take or fail to
take, a personnel action with respect to any employee
or applicant for employment because of—
(A) any disclosure of information by an employee or applicant which the employee or applicant reasonably believes evidences—
any violation of any law, rule, or regulation, or
gross mismanagement, a gross waste of
funds, an abuse of authority, or a substantial
and specific danger to public health or safety,
if such disclosure is not specifically prohibited
by law and if such information is not specifically required by Executive order to be kept
secret in the interest of national defense or
the conduct of foreign affairs;

(9) take or fail to take, or threaten to take or fail to
take, any personnel action against any employee or applicant for employment because of—
(A) the exercise of any appeal, complaint, or
grievance right granted by any law, rule, or
regulation—
with regard to remedying a violation of
paragraph (8); or
other than with regard to remedying a
violation of paragraph (8);

5
5 U.S.C. § 1221. Individual right of action in certain reprisal cases
(a) Subject to the provisions of subsection (b) of this
section and subsection 1214(a)(3), an employee, former
employee, or applicant for employment may, with respect to any personnel action taken, or proposed to be
taken, against such employee, former employee, or applicant for employment, as a result of a prohibited personnel practice described in section 2302(b)(8) or
section 2302(b)(9)(A)(i), (B), (C), or (D), seek corrective
action from the Merit Systems Protection Board. . . .
5 U.S.C. § 7701. Appellate procedures.
(a) An employee, or applicant for employment, may
submit an appeal to the Merit Systems Protection
Board from any action which is appealable to the
Board under any law, rule, or regulation. An appellant
shall have the right—
to a hearing for which a transcript will
be kept; and
to be represented by an attorney or other
representative.
Appeals shall be processed in accordance with
regulations prescribed by the Board. . . .
5 U.S.C. § 1204. Powers and functions of the Merit
Systems Protection Board
(a) The Merit Systems Protection Board shall—
(1) hear, adjudicate, or provide for the hearing or adjudication, of all matters within the jurisdiction of the

6
Board under this title, chapter 43 of title 38, or any
other law, rule, or regulation, and, subject to otherwise
applicable provisions of law, take final action on any
such matter; . . .
5 U.S.C. § 3105. Appointment of administrative
law judges.
. . . Administrative law judges shall be assigned to
cases in rotation so far as practicable, and may not perform duties inconsistent with their duties and responsibilities as administrative law judges.
5 C.F.R. § 1201.24 Content of an appeal; right to a
hearing.
. . . (d) Right to hearing. An appellant generally has
a right to a hearing on the merits if the appeal has
been timely filed and the Board has jurisdiction over
the appeal.
(e) Timely request. The appellant must submit any
request for a hearing with the appeal, or within any
other time period the judge sets for that purpose. If the
appellant does not make a timely request for a hearing,
the right to a hearing is waived.
5 C.F.R. § 1201.41 Judges.
. . . (b) Authority. Judges will conduct fair and impartial hearings and will issue timely and clear decisions based on statutes and legal precedents. They will
have all powers necessary to that end unless those
powers are otherwise limited by law. . . .

7
5 C.F.R. § 1201.51 Scheduling the hearing.
The hearing will be scheduled not earlier than 15
days after the date of the hearing notice unless the parties agree to an earlier date. The agency, upon request
of the judge, must provide appropriate hearing space.
The judge may change the time, date, or place of
the hearing, or suspend, adjourn, or continue the hearing. The change will not require the 15-day notice provided in paragraph (a) of this section.
Either party may file a motion for postponement
of the hearing. The motion must be made in writing
and must either be accompanied by an affidavit or
sworn statement under 28 U.S.C. 1746. (See appendix
IV.) The affidavit or sworn statement must describe the
reasons for the request. The judge will grant the request for postponement only upon a showing of good
cause.
♦

INTRODUCTION
The Whistleblower Protection Act, 5 U.S.C. § 2302
("WPA"), protects federal government employees from
adverse personnel actions following their disclosure of
any information they reasonably believe evidences any
violation of any law, rule, or regulation. 5 U.S.C.
§ 2302(b)(8). Congress enhanced the WPA in 2012, reaffirming its decades-long commitment to "the strong
national interest in protecting good faith whistleblowing," insisting upon "broad protection of whistleblower

8
disclosures." S. Rep. No. 112-155, at 5 (2012). If left unreviewed, the decisions below would endorse the unfettered dismantling of the WPA where administrative
judges (AJs) of the Merit Systems Protection Board
(MSPB) abrogate appellants' statutory due process
right to a hearing in favor of instituting a summary
judgment standard that Congress has not authorized.
Congress has expressly not granted the MSPB summary judgment authority. App. 134a.
In 2016, Petitioner was terminated from his longaspired career as an Air Traffic Control Specialist
Trainee at the Federal Aviation Administration
(FAA)1. Petitioner initiated an appeal to the MSPB
alleging he had been subject to retaliation pursuant to
sections b(8) and b(9) of the WPA. The AJ assigned to
his case found Petitioner had (a) filed a timely appeal,
(b) invoked MSPB jurisdiction, and (c) requested a
hearing. App. 63a-64a. Thus, Petitioner was entitled to
a hearing as a matter of law. 5 U.S.C. § 7701; 5 C.F.R.
§ 1201.24(d). Nevertheless, the AJ issued a single-sentence declaration stating Petitioner had withdrawn his
request for a hearing, without providing any supporting evidence. App. 62a. No hearing was conducted. Instead, the AJ instituted a summary judgment process,
discussed below, and issued a decision denying Petitioner relief.
1 Petitioner holds a B.S. in aviation management from Purdue University, where he studied air traffic control. He worked as
an FAA certificated flight instructor from 2014 to 2016 before being hired by the FAA, and now works as a commercial airline pilot.

9
There is no evidence that Petitioner waived his
right to a hearing, nor is there evidence that a waiver
could have been effected knowingly, intelligently, and
voluntarily as espoused by this Court's holding in
Johnson v. Zerbst, 304 U.S. 458 (1938), among other of
this Court's precedent pertaining to waivers of statutory due process rights. On these grounds, among others, Petitioner appealed to the Federal Circuit, where
a panel charged with conducting a de novo review deferred to the AJ's conclusions to uphold that Petitioner
had waived his hearing right, citing no other evidence.
Following a petition for panel rehearing, argued by Petitioner's counsel, the panel issued a per curiam summary denial.
Because these decisions depart far beyond the accepted and usual course of judicial proceedings, this
Court is petitioned to invoke its supervisory power under Rule 10(a) and grant certiorari. A statutory right
cannot be found to have been waived where there is, in
fact, no evidence of a waiver.
♦

STATEMENT OF THE CASE
1. Statutory and Regulatory Framework
The MSPB is a quasi-judicial executive branch
agency tasked by statute with reviewing individual
right of action (IRA) appeals brought forth by federal
employees seeking WPA protection. 5 U.S.C. § 1204,
§ 1221. Unlike other quasi-judicial executive branch
agencies, the MSPB does not have the power to grant

10
summary judgment. Crispin v. Department of Commerce, 732 F.2d 919, 924 (Fed. Cir. 1984); see also
Whistleblower Protection, Government Accountability
Office, Report No. GA0-17-110 (2016) (App. 133a139a). Thus, to decide on the merits of timely-filed appeals over which it has jurisdiction, the MSPB is compelled by federal laws and regulations to conduct
hearings. See 5 U.S.C. § 1204(a)(1); § 7701(a); 5 C.F.R.
§ 1201.24(d)-(e).
MSPB precedent states "An appellant may only
waive his right to a hearing by clear, unequivocal, or
decisive action." Campell v. Department of Defense, 102
M.S.P.R. 178, If 5 (MSPB 2006). Further, the waiver
must be an informed one. Id. An appellant's waiver of
the right to a hearing is informed when he has been
fully apprised of the relevant adjudicatory requirements and options in his case. Id. Federal Circuit precedent states "When the appellant believes the written
record contains all the necessary information, the appellant can waive the right to a hearing and ask for a
decision based on that written record." Alberg v. Department of Health and Human Services, 804 F.2d
1238, 1243 (Fed. Cir. 1986).
If prehearing conference statements are to be relied upon to establish a hearing waiver, the conference
should be documented to establish that all adjudicatory requirements and options were discussed. See
McBurney v. OPM, 39 M.S.P.R. 126, 130-31 (1988);
Phillips v. Department of Air Force, 71 M.S.P.R. 381,
383-84 (1996) (remanding case to properly explain,

11

with reference to prehearing conference, basis for conclusion that hearing was waived).
2. Factual and Procedural Background

In 2016, Petitioner Harold E. Rutila, IV was
an Air Traffic Control Specialist Trainee at the FAA,
pursuing a lifelong dream to become an air traffic controller. App. 13a. During his second-to-last day of training, while completing an assessment in a computerized
simulator, his assessment became compromised due to
the onset of several known software malfunctions. See,
e.g., App. 89a. Petitioner has consistently alleged that
two FAA evaluators, Michael Taylor and Dan Henderson, failed to account for and properly address those
malfunctions. App. 42a. The evaluators issued Petitioner a career-ending score that directly caused his
termination. App. 3a. Immediately prior to this assessment, Petitioner had filed and won an appeal with
FAA management, citing agency rules contained in a
Grading Guidelines document and FAA Order 7110.65,
in which he alleged and obtained relief from Henderson's misapplication of those rules while grading Petitioner's previous assessment. App. 2a. On these
grounds, having reasonably believed he disclosed Henderson's wrongdoing, and having been subsequently
terminated due to Henderson's undue involvement
in his subsequent testing2, Petitioner believed his
a.

2 Agency policy states "Students will have a different evaluator for each scenario." App. 129a. Contravening this policy, the
FAA has admitted that Henderson "might have" influenced

12
disclosure was protected under sections b(8) and b(9)
of the WPA, and that he was entitled to relief from his
termination.
On April 22, 2018, Petitioner filed an individual right of action (IRA) appeal with the MSPB seeking
restorative relief under the WPA. App. 103a-110a. On
June 28, 2018, the AJ found Petitioner had properly invoked MSPB jurisdiction over his appeal pursuant to
5 U.S.C. §§ 1214(a)(3), 1221(a), and (e), and that he was
entitled to his requested hearing. App. 12a-15a. In a
prehearing conference summary dated October 26,
2018, the AJ declared that Petitioner "withdrew" his
hearing request'. App. 62a. That record, however,
does not support that the AJ informed Petitioner of his
adjudicatory rights and options prior to seeking or accepting his purported waiver, required by McBurney,
39 M.S.P.R. 126, 130-31, and Phillips, 71 M.S.P.R. 381,
383-384. Id. On December 20, 2018, the AJ issued a decision without a hearing, denying Petitioner relief.
App. 12a-25a.
At the time of the AJ's prehearing conference,
held on the Friday afternoon preceding the Monday
morning hearing, Petitioner's motions for a subpoena
and to compel discovery (which the AJ required Petitioner to file with less time than the regulations allot)

Petitioner's score on a second assessment, the one which caused
Petitioner's termination. App. 119a-120a.
3 Confusingly, the AJ then made reference to a future hearing on the merits in the same document. App. 64a.

13
were still outstanding before the AJ. Petitioner therefore moved for a postponement of the hearing.
I am moving for a postponement of the hearing date in this Appeal. . . . I have two outstanding motions before the Board: The first
is a motion for a subpoena of former Agency
employee Dan Henderson, who is expected to
testify as a witness on behalf of the Agency
. . . . The second outstanding motion is a motion to compel discovery. . . . The Board gave
me six days to file a motion to compel, which
is four days less than the regulations provide.
5 C.F.R. § 1201.73(d)(3).
App. 69a4.
This demonstrates Petitioner did not "believe [ ]
the written record contain[ed] all the necessary information" for a decision to be made without a hearing.
See Alberg, 804 F.2d 1238.
The AJ never addressed Petitioner's motion to
postpone the hearing, contrasting sharply with her
treatment of the agency's numerous motions for postponement. See, e.g., App. 114a (granting agency a 42day delay); App. 113a (granting agency a 12-day delay);
App. 112a (granting agency a 7-day delay). Having repeatedly eroded the number of days between prehearing filing deadlines and the date of the hearing, the AJ
prejudiced Petitioner when she ignored his motion to
4 "Any motion for an order to compel or issue a subpoena
must be filed with the judge within 10 days of the date of service
of objections or, if no response is received, within 10 days after
the time limit for response has expired." 5 C.F.R. 1201.73(d)(3).

14
postpone, because this ultimately ensured Petitioner
would have no significant time to review any of the
agency's filings or otherwise prepare for his hearing.
On appeal to the Federal Circuit, Petitioner
argued that he never waived his rights and that there
was no evidence of any waiver. App. 121a-126a. He also
argued that during the prehearing conference, a
waiver could not have been entered under the MSPB's
standard requiring clear, unequivocal, decisive, and informed action. Id.
The Federal Circuit was required to conduct a de
novo review of the AJ's legal conclusions. See Campbell
v. Merit Systems Protection Board, 27 F.3d 1560, 1564
(Fed. Cir. 1994). Nevertheless, the Federal Circuit relied on deference to the AJ to uphold her conclusion
that Petitioner had withdrawn his hearing request,
without citing evidence supporting the existence of any
waiver, and without addressing whether a waiver
could have been legally obtained in the first place. App.
10a-11a. Regarding Petitioner's motion to postpone his
hearing, the panel reasoned, with one poorly-written
sentence, "Mr. Rutila failed to preserve his objection to
the denial of his motion to postpone by foregoing his
right to a hearing." App. 1 la. But the lack of any evidence of a waiver, beyond the AJ's disputed conclusion,
speaks for itself. The Federal Circuit erred when it allowed deference to corrupt its de novo review.
Petitioner obtained counsel to petition the
panel for a rehearing, filed May 19, 2020. App. 30a-52a.
The panel was supplied with a plethora of MSPB and

15
Federal Circuit case law highlighting the importance
of Petitioner's hearing right. Id. None of the circumstances in which a hearing could have been waived existed in this case. See, e.g., App. 35a-39a. The panel was
exhorted to reconsider how the AJ's truncation of prehearing deadlines without a corresponding delay of
hearing prejudiced Petitioner. App. 40a. On June 5,
2020, the Federal Circuit issued a per curiam summary denial of that petition. App. 28a-29a.
f. The record does not support that Petitioner
waived his hearing right. Petitioner is entitled as a
matter of law to a hearing on the merits of his claims.
Even if Petitioner had waived his hearing right during
a prehearing conference, the AJ was required to document that she had informed him of the relevant adjudicatory requirements and options in his case.
Campell, 102 M.S.P.R. 178, 91 5. This did not occur. Nor
can it be ascertained that Petitioner, if he did effect a
waiver during a prehearing conference, did so clearly,
unequivocally, and decisively, id., or knowingly, voluntarily, and intelligently. See Johnson v. Zerbst, 304 U.S.
458 (1938). The evident violation of Petitioner's due
process right to a hearing renders this case ripe for
Court intervention.
♦

16
REASONS FOR GRANTING THE WRIT
1. The decisions below endorse rogue decision
making by an administrative judge that
went far beyond the normal course of WPA
litigation, because summary judgment was
imposed on Petitioner without a basis in
law, prejudicing Petitioner's due process
right to a hearing.
Under 5 U.S.C. § 7701(a)(1), an MSPB appellant
has a fundamental right to a hearing. Frampton v. Department of Interior, 811 F.2d 1486, 1488, 1489 (Fed.
Cir. 1987). The standard for Petitioner to establish
MSPB's subject matter jurisdiction and the right to a
hearing is assertion of a non-frivolous claim. Langer v.
Department of Treasury, 265 F.3d 1259, 1265 (Fed. Cir.
2001) (quoting Montana Dakota Utils. Co. v. Northwestern Pub. Serv. Co., 341 U.S. 246, 71 S.Ct. 692, 95
L.Ed. 912 (1951)). Likewise, the 7th Circuit acknowledges
that MSPB regulations provide detail as to "what must
be included in an appeal to invoke a whistleblower's
right to a hearing." Delgado v. Merit Systems Protection
Board, 880 F.3d 913, 921 (7th Cir. 2018) (citing 5 C.F.R.
§§ 1209.6(a)(1), 1201.24(a)(1)-(9)). Here, as the AJ found
Petitioner properly invoked the MSPB's jurisdiction,
App. 14a, there should have been no question that Petitioner was entitled to a hearing. That right cannot
be effectively waived unless it is unequivocal after an
appellant is fully informed of adjudicatory requirements and options. Pariseau v. Department of the Air
Force, 113 M.S.P.R. 370, 373-374 (2010). Rather than
uphold this right, the AJ abrogated it by insisting that

17
Petitioner "withdrew" his request for a hearing. App.
13a. If this conclusion were true, the evidence would
need to be much more compelling than one sentence in
the decision, id., and the corresponding summary, App.
62a. The record does not demonstrate there was a legally sufficient hearing right waiver.
Here, the Federal Circuit's analysis of Petitioner's
purported hearing request "withdrawal" pales in comparison to a recent analysis of a hearing right waiver
by the 1st Circuit. In assessing the waiver of an MSPB
appellant's hearing right, the 1st Circuit found evidence of a waiver by citing an MSPB appellant's memorandum, wherein he stated that the case "ha[d] a very
well-developed record," and that "[he found the] hearing burdensome and unnecessary." Mount v. Department of Homeland Security, 937 F.3d 37 (1st Cir. 2019).
Mount starkly contrasts with this case. Whereas in
Mount there is written evidence from the appellant affirming his waiver, here, there is no such evidence at
all. Whereas in Mount, the record was clearly closed as
required by Campell, 102 M.S.P.R. 178, here, the record
was not. Petitioner's motion to compel discovery, App.
74a-102a, was still pending, demonstrating he could
not have reasonably believed the record to be "welldeveloped" enough to permit a decision without a
hearing. The AJ's subsequent demand for supplemental briefing in the form of an "Initial Brief," App.
111a (the criteria for which remains undefined)
demonstrates that the AJ herself did not view the
record as sufficiently complete to warrant a decision

18
without a hearing. In short, this case did not meet the
legal prerequisites necessary to forego a hearing.
2. The Merit Systems Protection Board's failure to provide Petitioner with a hearing,
and the Federal Circuit's upholding of the
same, caused undue harm to Petitioner that
should compel this Court's intervention.

After neglecting to uphold Petitioner's right to a
hearing, the AJ issued a decision which did not
properly apply the evidentiary burdens to Petitioner's
claims and Respondent's affirmative defense, causing
Petitioner undue harm. For example, the AJ upheld
Respondent's claim that Petitioner underperformed
merely by citing Respondent's unsupported arguments
that Petitioner "misdirected an aircraft" and, vaguely,
"mishandled the situation," during his third end-ofcourse assessment in a computerized simulator. App.
117a5. To support this finding, the AJ cited unsworn,
unsigned testimony which directly contradicted sworn,
signed testimony by the same official, Ronald Ward,
in other proceedings. App. 21a. When Petitioner timely
motioned to compel discovery, highlighting inconsistent testimony by Ward, App. 88a-93a, the AJ left
this matter unresolved through a summary denial of
that motion two days after it was filed. App. 67a.
Respondent's burden in its affirmative defense
was to prove independent causation under the clear
5 The AJ copied and pasted this language into her decision
verbatim. App. 21a.

19
and convincing evidence standard. See Miller v. Department of Justice, 842 F.3d 1252, 1257 (Fed. Cir.
2016). The defense Respondent presented was merely
an indictment of Petitioner based on alleged, unproven
underperformance that did not satisfy any evidentiary
burden. App. 115a-120a. Underperformance, to the
extent any actually occurred, is not an acceptable affirmative defense in a WPA claim. See, e.g., Smith v.
General Service Administration, Case No. 2018-1604
(Fed. Cir. Jul. 19, 2019). "The merits cannot be the determinative factor that there was no reprisal. A meritorious adverse action must be set aside where there
is reprisal." Siler v. Environmental Protection Agency,
908 F.3d 1291, 1298-1299 (Fed. Cir. 2018). Even if Petitioner had underperformed, he would still be entitled
to relief.
On appeal, the Federal Circuit stated "The Board
highlighted the agency's evidence that Mr. Rutila in
fact 'misguided an airplane and mishandled the situation' during his third evaluation." App. 7a. As has
already been pointed out, these two conclusions originated in Respondent's Initial Brief before the MSPB
AJ, App. 115a-120a, and are not supported by any evidence. They are, "in fact," not facts.

6 Petitioner requested evidence from his assessments during
discovery. App. 85a-93a. Respondent opposed, and the AJ issued
a summary denial. App. 67a. The Federal Circuit affirmed the
summary denial of discovery, App. 9a-10a, while implicating
Petitioner for underperformance, App. 7a, despite that evidence
Petitioner expected to obtain in discovery would have proven that
he did not underperform at all. See, e.g., App. 39a-45a.

20
The Federal Circuit also refused to acknowledge
the effect of the AJ's summary denial of Petitioner's
241-page motion to compel, or the fact that she required Petitioner to file it within 6 days, when 5 C.F.R.
§ 1201.73(d) allots 10 days. App. 123a. The panel reasoned "Mr. Rutila does not explain how a contrary ruling would have affected the outcome." App. 10a. This is
perplexing in light of the panel's upholding of the remainder of Respondent's affirmative defense based on
no evidence. App. 8a. As argued in a petition for rehearing, evidence did exist to counter Respondent's affirmative defense, and additional evidence was stymied by
the AJ's summary denial of Petitioner's discovery motion. App. 47a-51a. In light of these circumstances, the
AJ's summary denial of Petitioner's motion to compel
discovery and the panel's per curiam summary denial
of Petitioner's petition for rehearing should not evoke
this Court's confidence in the strength of the MSPB or
the Federal Circuit's reasoning.
The necessity of a hearing in this case is obvious
because a plain text reading of 5 U.S.C. §§ 7701(a),
1204(a), and 5 C.F.R. § 1201.24(d) requires one. Without a hearing, the proper legal standard for assessing
Respondent's defense was not applied. A verbal presentation of the standards and the evidence at a fair hearing, as required by law, would have mitigated the
rampant error contained in the AJ's unlawful quasisummary judgment decision making process.
What Petitioner wrote in his reply brief on appeal
to the Federal Circuit applies equally here: "Put
simply, as the Congress has established MSPB

21
appellants' rights to a hearing, and the MSPB
acknowledges this in its judges' handbook, there is a
clear harm to public policy when an AJ arbitrarily and
coercively retracts that right on made-up grounds
which themselves make no sense." App. 125a-126a.
This Court should be confounded under Rule 10(a) to
grant certiorari because the decisions below vastly departed from the course of normal proceedings.
3. The MSPB's and the Federal Circuit's decisions gravely threaten WPA protections for
a wide swath of future whistleblowers.

Although this petition concerns two non-precedential decisions by the MSPB and the Federal Circuit, the
decisions constitute grave threats to WPA protections
across a broad spectrum of cases. The MSPB's overly
rigid decisions, and their routine upholding by the
Federal Circuit, have been the subject of decades of
Congressional scorn. See, e.g., Senate Report No. 112155 (2012) ("Despite the clear legislative history . . .
the Federal Circuit and the MSPB have continued to
undermine the WPA's intended meaning . . . ."). The issue here—how MSPB AJs handle cases that persevere
into the merits stage—is extraordinarily important,
because improper application of the law to meritorious
appeals renders the law entirely unenforceable.
Here, the AJ's unsubstantiated conclusion that
Petitioner "withdrew" his hearing request dealt a fatal blow to Petitioner's statutory due process right
to a hearing. Whereas statute indeed infers that an

22
appellant may waive his hearing right, § 1201.59(b),
in this case, the term "waive" cannot be found in the
record. The Federal Circuit failed to substantiate its
upholding of this conclusion with any evidence. It did
not demonstrate how the AJ's summary alone could
be sufficient to justify that a waiver occurred, particularly in light of MSPB precedent, which negates the
credibility of AJ summaries as standalone evidence.
See McBurney, 39 M.S.P.R. 126, 130-31; Phillips, 71
M.S.P.R. 381, 383-84.
Petitioner was entitled to the Federal Circuit's de
novo review of the AJ's legal conclusions. See Campbell
v. Merit Systems Protection Board, 27 F.3d 1560, 1564
(Fed. Cir. 1994). "De novo review occurs when a court
decides an issue without deference to a previous court's
decision." Cornell Law School, Legal Information Institute (2020). Because the record does not support a clear
and explicit waiver, and because the AJ was not entitled to deference during the appellate court's de novo
review, the Federal Circuit erred in upholding the existence of a waiver.
The Federal Circuit's decision went one step further by failing to overturn the AJ's institution of an
unspecific, quasi-summary judgment procedure, which
was entirely outside of her authority and the authority
of the entire MSPB. Congress has refused to extend
MSPB summary judgment authority in WPA appeals.
App. 133-134a.
The AJ's prehearing conference summary did not
address Petitioner's burdens to prevail in his case

23
without a hearing. The ensuing "initial brief" structure, imposed on the parties by the AJ, App. 111a,
seems to have prioritized expediency at any cost, even
at the cost of Petitioner's statutory rights'. Important
questions about this briefing process were left unaddressed: Which party's facts were entitled to favorable presumptions? Which party should file first, and
why? While simultaneously imposing this unlawful
briefing structure, the AJ proceeded to further dismantle Petitioner's rights to due process by summarily
denying his subpoena and discovery motions without
explanation. The Federal Circuit failed to substantively address these obvious issues. See App. 4a-11a.
This is not the way Congress intended WPA appellants to be treated. Petitioner's experience at the
MSPB amounted to a complete dismantling of his statutory rights and an unwarranted indictment on his
merit. If the Federal Circuit continues to endorse rogue
decision making by MSPB AJs, as it did in this case,
then whistleblowers like Petitioner, whose case survived all the way to the merits stage, will continue to
7 The AJ's decision was issued on December 20, 2018, two
days before a 35-day federal government shutdown. The decision
quotes Respondent's briefs verbatim multiple times, but does not
address a single aspect of Petitioner's arguments, his rebuttals,
or his cited evidence, indicating that this process, in addition to
being arbitrarily constructed without statutory authority, was
insufficient on its face. The core of due process is a meaningful
opportunity to be heard. Cleveland Bd. of Ed. v. Loudermill, 470
U.S. 532, 542 (1985). The record supports that Petitioner was not
heard because he was not provided a hearing and because the decision does not address any arguments or evidence he presented
in his written briefs.

24
be deprived of their statutory rights, eliminating any
opportunity for them to prevail on the merits of their
cases.
♦

CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
HAROLD E. RUTILA, IV
Pro se
114 W. Adams Ave.
Apt. 401
Detroit, MI 48226
(810) 845-3497
h.rutila@gmail.com

